HHS/OIG, Audit -"Review of Title IV-E Administrative and Training Costs Claimed by the Delaware
Department of Services for Children, Youth and Their Families,"(A-03-03-00562)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Title IV-E Administrative and Training Costs
Claimed by the Delaware Department of Services for Children, Youth and Their Families," (A-03-03-00562)
July 8, 2005
Complete
Text of Report is available in PDF format (677 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Title IV-E administrative and training costs claimed by
the Department of Services were allowable, allocable, and reasonable in accordance with applicable
Federal regulations and guidelines.  We found that the Department of Services used a revised allocation
method that allocated all case management costs for candidates to Title IV-E, without considering the
percentage actually placed in Title IV-E foster care.  In addition, the Department of Services
used incorrect salaries in flawed cost allocation schedules and claimed indirect costs at an enhanced
funding rate.  The Department of Services took actions during our audit to correct the conditions
that we identified.
We recommended that the Department of Services:  (1) work with ACF officials to resolve the increase
of $5,859,542 (Federal share) in Title IV-E administrative claims that resulted from using an inequitable
methodology to allocate candidates case management costs, (2) amend its cost allocation plan to reflect
the appropriate methodology for allocating administrative costs for foster care candidates, (3) continue
to include only current-quarter salaries for the Client Payments Unit, the Training Unit, and Foster
Home Coordinators in calculating administrative claims, (4) use actual salaries to recalculate the
administrative claims for the quarters ended December 1999 through June 2001 and make the appropriate
adjustments, and (5) refund to the Federal Government $53,191 in improperly claimed indirect costs
and discontinue the practice of claiming indirect costs at the enhanced 75-percent Federal funding
rate.